1301 Pennsylvania Avenue NW
Washington, D.C. 20004
United States

Michael F. Williams, P.C.
To Call Writer Directly:
+1 202 389 5123
mwilliams@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

March 27, 2020
By Electronic Filing and Overnight Delivery
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Territory of Guam, et al. v. Davis, No. 19-827

Dear Mr. Harris:
On behalf of petitioners, and pursuant to the Court’s March 19, 2020 Miscellaneous Order
recognizing the ongoing public health concerns relating to COVID-19, I write to request a 14-day
extension of time for distribution of the above-captioned petition for writ of certiorari and
respectfully request that the petition be set for distribution on April 15, 2020. Counsel for
respondent does not oppose this delay of distribution.
Guam is currently in an emergency situation because of the COVID-19 pandemic, which
has complicated petitioners’ ability to meaningfully confer with counsel and help prepare a timely
reply brief. A 14-day extension of time will provide petitioners sufficient time to balance Guam’s
response to the ongoing crisis, while also assisting counsel in preparation of the reply brief.
Respondent initially waived his right to respond, and the Court called for a response on
January 21, 2020. Respondent filed a brief in opposition on March 17, 2020. Under Rules 15.5
and 15.6, the petition is currently set for distribution on April 1, 2020, for consideration at the
Conference of April 17, 2020. Petitioners respectfully request that the petition instead be set for
distribution on April 15, 2020, for consideration at the Conference of May 1, 2020.
Sincerely,

Michael F. Williams, P.C.

Beijing

Boston

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

